                              CLOSEOUT FOR CASE M 99030013

On 25 March 1999, we w i v e d an allegation of misconduct in science.' It was alleged
that the subject? fabricated two publications3 in his final project report for his NSF award4
that he represented as products resulting from his award. Neither publication could be
found in the NSF's library's computerized publication's databases. However, interlibrary
loan requests for both publications proved successfd, verifjling that each publication
existed. We concluded that there was no substance to the allegation that the subject had
fabricated publications in his final project report to NSF.

This inquiry is closed and no further action will be taken.      '
cc:' Integrity, IG.




' The allegation was brought to our attention b.
              t   h    e subiea. was a member=




                                                   Page 1 of 1                    M 99-13
